                                                  &.

  "OVICES'



                   DEPARTMENT OF HEALTH                HUMAN SERVICES                              Office of Inspector General

:.t'''UG
                                                                                                   Washington , D. C.   20201

                                                            FEB I 7 2005




           TO:             Dennis P. Wiliams , Ph.
                           Deputy Administrator
                           Health Resources n      Services A      nist,ion

           FROM:           George Grob 4
                           Assistant I      ' r ene
                               for EValuation and I     pections

           SUBJECT:        OIG Final Report: Ris       Management at Health Centers (OEI- 01-03- 00050)


           Attached is a final inspection report providing perspectives of community health center offcials
           regarding risk management practices and the challenges health centers experience in conducting
           them.

           Broadly defined , risk management includes any activity, process , or policy to reduce liability
           exposure. From both a patient safety and a financial perspective , it is vital that health centers
           conduct risk management activities aimed at preventing harm to patients and reducing medical
           malpractice claims. In fiscal year 2003 , a total of 240 medical malpractice claims (seeking $1.4
           bilion in damages) were brought against health centers that are covered under the Federal Tort
           Claims Act. The Health Resources and Services Administration (HRSA) paid $22. 7 milion for
           65 claims against these health centers.

           To learn more about risk management at health centers , we identified 16 risk management
           practices and sureyed health center grantees to learn about their experiences with them and to
           obtain their assessment and advice about them. Respondents selected credentialing, quality
           improvement , comprehensive medical records , and clear communication with patients as the
           most important risk management activities. They identified training, patient tracking, and peer
           review as the most difficult to do and indicated that inadequate financial resources , staffng, and
           training are the key challenges to conducting risk management.

           We are providing this information solely for your use in addressing these challenges. HRSA'
           positive response to the report reflects its commitment to improving risk management for health
           centers. If you have any questions about this report , please do not hesitate to call me or one of
           your staff may contact Elise Stein , Director , Public Health and Human Services Branch , at
           (202) 619- 2686 or through e-mail ( Elise. Stein oig. hhs. gov ). To facilitate identification , please
           refer to report number OEI- 01-03- 00050 in all correspondence.

           Attachment
Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





      RISK MANAGEMENT AT

        HEALTH CENTERS





                     Inspector General

                      February 2005
                     OEI-01-03-00050
               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
∆   E X E C U T I V E                          S U M M A R Y


                  OBJECTIVE
                  To obtain health center grantees’ perspectives regarding the relative
                  importance of certain risk management practices and to identify any
                  challenges or promising approaches regarding those practices.


                  BACKGROUND
                  The Health Resources and Services Administration (HRSA) awards
                  grants to health centers to improve the health status of underserved
                  populations. In fiscal year (FY) 2003, HRSA received $1.5 billion to
                  fund 890 health center grants. These health centers served 12.4 million
                  patients. In FY 2002, the President began a 5-year initiative to expand
                  the health center program. This initiative is expected to add 1,200 new
                  health center delivery sites and to increase the number of patients
                  served in these sites to 16 million.

                  Broadly defined, risk management includes any activity, process, or
                  policy to reduce liability exposure. From both a patient safety and a
                  financial perspective, it is vital that health centers conduct risk
                  management activities aimed at preventing harm to patients and
                  reducing medical malpractice claims. Health centers treat a wide
                  variety of conditions, including diabetes, asthma, hypertension, and
                  cardiovascular diseases, which makes it imperative for health centers to
                  ensure that their patients receive the highest level of care. Many health
                  centers also provide obstetric care, a high-risk area.

                  From a financial perspective, HRSA has a particular interest in deemed
                  health centers. Deemed health centers, which make up the majority of
                  health centers, are those covered under the Federal Tort Claims Act for
                  the purposes of medical malpractice. Therefore, they do not have to
                  purchase private malpractice insurance. This results in savings for the
                  health centers. HRSA is financially responsible for any payments or
                  settlements arising from claims against these centers. In FY 2003, 240
                  medical malpractice claims were brought against deemed health
                  centers, seeking $1.4 billion in damages.

                  Through document reviews and interviews, we identified 16 risk
                  management practices that health centers are likely to conduct. These
                  16 practices included maintaining comprehensive medical records,
                  credentialing, and conducting peer review. We surveyed a random
                  sample of 248 health center grantees to learn about their experiences
                  and to obtain their assessment and advice. We received a 71 percent

OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                         i
E X E C U T I V E              S U          M M A R Y


                   response rate. To ensure that our results covered a broad spectrum of
                   health centers, we stratified the sample by the number of patients
                   served at health centers. However, the data in this report are not
                   weighted and, therefore, we cannot make any statistical projections to
                   the entire population of health centers. All data are self-reported and
                   are not verified. The survey was anonymous with the intent to reduce
                   bias in our survey results.


                   SURVEY RESULTS
                   Health center respondents selected credentialing, quality improvement,
                   comprehensive medical records, and clear communication with patients
                   as the most important risk management activities. We asked health
                   centers to select the three most important risk management practices
                   for reducing medical malpractice claims and ensuring patient safety.
                   The risk management practice cited most often was credentialing
                   (51 percent of respondents cited it as one of the three). The second
                   practice cited most often was quality improvement (42 percent), the
                   third was comprehensive medical records (41 percent), and the fourth
                   was clear communication with patients (38 percent).

                   On a separate survey question, respondents indicated that all 16 risk
                   management practices were important. Respondents varied little in
                   their assessment of how important each practice was. Between 92 and
                   100 percent of respondents indicated that each practice was either very
                   or somewhat important.
                   Respondents selected training, patient tracking, and peer review as the
                   three most difficult risk management practices to conduct. We asked
                   health centers to select the three most difficult risk management
                   practices to conduct. Forty-eight percent responded that regular staff
                   training was one of the three most difficult risk management activities
                   to implement. Forty-two percent selected patient tracking mechanisms,
                   and 32 percent selected peer review.
                   Inadequate financial resources, staffing, and training were seen as key
                   challenges to conducting risk management. Eighty-four percent of
                   respondents cited lack of financial resources for risk management as a
                   major or moderate challenge, 83 percent cited lack of a dedicated full-
                   time equivalent staff person for risk management, and 64 percent cited
                   lack of training.




 OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                      ii
                 E N C Y

                     RESPONDENT COMMENTS
                     Twenty-five percent of respondents offered their suggestions about
                     promising or innovative approaches for risk management and
                     39 percent of respondents offered recommendations to HRSA. In the
                     report we include highlights from these responses , as they may be
                     useful to HRSA.


                     OPPORTUNITIES FOR IMPROVEMENT
                     The fundamental challenge that respondents experienced in
                     conducting risk management was the lack of financial resources. This
                     has implications for training, staffng, and other risk management
                     activities. HRSA may want to ensure that all health centers are
                     adequately investing in risk management. In particular , HRSA may
                     want to determine the amount of savings deemed health centers
                     realize from being deemed and ensure that they are reinvesting some
                     portion of their savings into risk management.
                     In addition , HRSA may want to consider developing a comprehensive
                     ongoing training agenda on risk management for health centers. HRSA
                     may also want to explore creative , inexpensive ways to assist health
                     centers , such as disseminating best practices or a newsletter , developing
                     tool kits that contain sample policies and procedures , and encouraging
                     health centers to participate in regional networks for sharing
                     information and resources about risk management.

                     AGENCY COMMENTS
                     HRSA responded positively to the report and its comments reflect its
                     commitment to improving risk management for health centers. It has
                     established a new goal that by 2010 , 100 percent of health centers wil
                     participate in risk management training. HRSA plans to achieve this
                     goal by holding risk management workshops and by developing a
                     comprehensive training agenda. For HRSA' s complete response , see
                     Appendix C attached to the main body of the report.




OEI. 01- 03. 00050   RISK MANAGEMENT AT HEALTH CENTERS                                     111
∆
   T A B L E               O F                C O N T E N T S



          E X E C U T I V E S U M M A R Y ....................................................i 



          I N T R O D U C T I O N ............................................................. 1 



          P R I M E R O N R I S K M A N A G E M E N T .................................... 7 



          S U R V E Y R E S U L T S ......................................................... 9 

                        Most important risk management practices . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


                        Most difficult risk management practices to conduct . . . . . . . . . . . . . . . 12 


                        Challenges to risk management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 




          R E S P O N D E N T C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                        Promising approaches . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 


                        Respondents recommendations to HRSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 



          O P P O R T U N I T I E S F O R I M P R O V E M E N T . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 



          A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 



          A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 


                        Appendix A: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 


                        Appendix B: Additional analysis by size of respondents . . . . . . . . . . . 36 




          A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38 



          E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

                     OBJECTIVE
                     To obtain health center grantees ' perspectives regarding the relative
                     importance of certain risk management practices and to identify any
                     challenges or promising approaches regarding those practices.

                     BACKGROUND
                     The Health Resources and Services Administration (HRSA), within the
                     Department of Health and Human Services , awards grants to a variety
                     of health centers , including community health centers , migrant health
                     centers , and public housing primary care centers) Each of these health
                     centers addresses the needs of a specific population and is designed to
                     increase access to primary health care services and to improve the
                     health status of underserved populations.
                     In fiscal year (FY) 2003 , HRSA received $1.5 billion to support
                     890 health center grants. These funds supported general operating
                     expenses and patient services. The health centers encompassed about
                       600 health care delivery sites and served 12.4 millon people. They
                     employed about 7 800 physicians and dentists and 70 000 other health
                     care practitioners and administrative staff. Also in FY 2003 , health
                     centers received an estimated $2. 1 billion from Medicaid and an
                     estimated $327 milion from Medicare.

                     The Importance of Risk Management
                     Broadly defined , risk management includes any activity, process , or
                     policy to reduce liability exposure. This involves all aspects of a health
                     center s infrastructure and services , including financial matters , facility
                     maintenance , fire safety, compliance with applicable laws and
                     regulations , and clinical care. However , for the purposes of this report
                     we limit the meaning of risk management to activities aimed at
                     reducing medical malpractice claims and ensuring patient safety
                     (protecting patients from harm).
                     Health centers conduct a wide array of activities to reduce medical
                     malpractice claims ,  such as credentialing and privileging health care
                     practitioners , using clinical protocols , and maintaining medical records.
                     These activities are critical for several reasons , which we elaborate on
                     in this section.

                     Ensuring patient safety.  Health centers treat a wide variety of
                     conditions , including diabetes , asthma , hypertension , and

OEI. 01. 03- 00050   RISK MANAGEMENT AT HEALTH CENTERS
I N T R O D        U C T     I O N


                    cardiovascular diseases, which makes it imperative for health centers to
                    ensure that patients receive the appropriate level of care. Many health
                    centers also provide obstetric care, a high-risk area, which further
                    underscores the importance of risk management.

                    Medical malpractice claims demonstrate the significance of potential
                    problems that can occur in health centers. Medical malpractice claims
                    filed in 2003 cover a broad range of conditions and severity. Examples
                    of some more serious claims included the following allegations: failure
                    to diagnose asthma, improper prescription of diabetes medication,
                    failure to treat elevated blood pressure, and failure to diagnose and
                    treat congestive heart failure and myocardial infarction. In addition,
                    there were claims related to obstetric care, which included the following
                    allegations: failure to remove gauze during delivery; negligent prenatal
                    care, labor, and delivery; and failure to diagnose and treat an ectopic
                    pregnancy. Although these claims have not yet been finally resolved or
                    determined to have merit, they illustrate the nature of some of the more
                    serious potential problems.
                    Costs associated with medical malpractice claims. To cover financial
                    losses due to medical malpractice claims, health centers can either
                    obtain coverage at no cost to the health center under the Federal Tort
                    Claims Act or purchase medical malpractice insurance from a private
                    company. 2
                    Health centers that elect to be covered under the Federal Tort Claims
                    Act are referred to as deemed health centers.3 Eligible health centers
                    include migrant health centers, community health centers, health care
                    for the homeless grantees, school-based health centers, and health
                    services for public housing residents grantees. In FY 2003, 680 health
                    centers were deemed (about 80 percent). The primary reason health
                    centers choose this option is the savings they realize by not having to
                    purchase private medical malpractice insurance.4
                    HRSA is financially responsible for any payments or losses arising from
                    medical malpractice claims against deemed health centers. Since
                    deeming began in 1992, 345 health centers have incurred claims against
                    them. Of these, 40 percent had 1 claim, 18 percent had 2 claims, and
                    the remainder had 3 or more claims.

                    In FY 2003, 240 medical malpractice claims were brought against
                    deemed health centers, seeking $1.4 billion in damages. There is a
                    considerable difference in the amount claimants seek and the actual
                    amount HRSA pays out. Historically, the median amount demanded by

 OEI-01-03-00050    RISK MANAGEMENT   AT   H E A LT H C E N T E R S                       2
I N T R O D        U C T     I O N


                    claimants was $1.5 million, whereas the median amount paid out by
                    HRSA was $125,000. In FY 2003, HRSA paid $22.7 million for
                    65 claims against these health centers. (These paid claims were not
                    necessarily filed in FY 2003.)

                    HRSA covers claim payments out of its Health Center Tort Claims
                    Fund. HRSA has raised concerns about the financial viability of this
                    fund as the health center program expands. HRSA’s FY 2003 budget
                    justification stated:
                          . . . FTCA [Federal Tort Claims Act] payments for settled
                          claims are expected to increase as a result of increases in the
                          number of covered health centers, health center physicians,
                          and patients, as well as, the overall upward trend in
                          judgments and settlements being experienced in the medical
                          malpractice marketplace. In addition, a number of insurance
                          companies are dropping malpractice coverage because of
                          substantial losses in providing malpractice insurance.

                    In FY 2004, HRSA received $45 million in appropriations for this fund.5
                    The President’s budget for FY 2005 requests $45 million.

                    In the cases in which a health center opts to purchase private
                    insurance, the insurer is financially responsible for any payments or
                    losses arising from medical malpractice claims against the center. To
                    reduce liability, the private insurer typically provides the health center
                    with a risk management assessment, training, and technical assistance.
                    Nondeemed health centers may choose to purchase private insurance
                    because they can afford the premiums and want to benefit from the risk
                    management services provided by the private insurer.
                    Expansion of the program. In FY 2003, health centers served
                    12.4 million patients. This number is expected to increase as the
                    program expands, thereby exposing HRSA to greater liability. In
                    FY 2002, the President began a 5-year initiative to expand the health
                    center program. This initiative is expected to add 1,200 new health
                    center delivery sites and to increase the number of patients served in all
                    sites to 16 million. The President’s FY 2005 budget requests the third
                    year of funding for this initiative, seeking $1.8 billion for the health
                    center program. With these funds it is expected that by the end of FY
                    2005 the total number of health center delivery sites will be 3,800.
                    Past program vulnerabilities. A 1997 U.S. Government Accountability
                    Office report raised concerns about the risk management services that


 OEI-01-03-00050    RISK MANAGEMENT   AT   H E A LT H C E N T E R S                         3
I N T R O D        U C T     I O N


                    HRSA intended to provide health centers at that time.6 Specifically, it
                    found that HRSA was providing limited risk management services to
                    deemed health centers. At the time this report was issued, the Federal
                    Tort Claims Act option for health centers had only been in place for a
                    few years. Health centers and HRSA both had little experience with
                    deeming. Since that time HRSA has taken steps to provide health
                    centers with additional risk management services. Still, it is timely to
                    reexamine these issues given that 7 years have passed.
                    Health Center Requirements for Risk Management
                    HRSA’s regulations and policies require all health centers to conduct
                    certain risk management activities. These activities include
                    implementing a quality assurance program, performing credentialing
                    and privileging for certain health care providers, and developing risk
                    management policies and procedures, among others. (See the primer on
                    page 7 for a list of risk management activities HRSA requires.)

                    In addition to these requirements, deemed health centers must adhere
                    to two additional requirements. First, the statute requires deemed
                    health centers to cooperate with the Department of Justice in providing
                    information related to medical malpractice claims.7
                    Second, HRSA’s policy requires a portion of the savings deemed health
                    centers realize to be reinvested in risk management. The policy
                    specifically states that HRSA “. . . expects as health centers begin to
                    realize savings in malpractice insurance costs due to coverage under the
                    Federal Tort Claims Act, centers will reinvest some of the savings to
                    target malpractice risk reduction.”8 However, the same policy may
                    cause some confusion about this requirement, because it also states that
                    the savings can be used for any activity within the scope of the grant.
                    Specifically, it states:
                          For example, these funds may be used to increase the number
                          of users, increase the range of services provided . . . or to
                          implement administrative improvements (including clinical
                          compensation, clinical quality improvement/risk management
                          activities).

                    HRSA monitors risk management at all health centers in two key ways:
                    grant applications and onsite reviews. The grant application and, when
                    applicable, the deeming application provide information about relevant
                    aspects of a health center’s risk management program. The grant
                    application also requires health centers to describe their quality
                    assurance and risk management practices. The deeming application

 OEI-01-03-00050    RISK MANAGEMENT   AT   H E A LT H C E N T E R S                       4
I N T R O D 
U C T          I O N


                   requires health centers to certify that they have certain risk
                   management practices in place, such as credentialing and privileging.

                   In terms of onsite reviews, HRSA previously relied on its Primary Care
                   Effectiveness Reviews, which were onsite performance reviews that
                   health centers received about once every 5 years. These reviews
                   included specific questions examining centers’ risk management
                   practices. However, HRSA no longer performs these reviews.

                   HRSA has developed a new performance assessment protocol for all its
                   grantees, including health centers. This new protocol is currently being
                   implemented and will likely include performance measures related to
                   risk management.

                   Health centers that are accredited by the Joint Commission on
                   Accreditation of Healthcare Organizations (referred to throughout the
                   report as the Joint Commission) must adhere to its standards for
                   ambulatory health care programs, which include numerous
                   requirements relevant to risk management.9 For example, these
                   standards require credentialing and privileging of providers and
                   internal monitoring of adverse events, among others. In 1997, HRSA
                   began an initiative to encourage health centers to seek accreditation.
                   As of 2003, 290 health centers (about 33 percent) had received
                   accreditation from the Joint Commission.


                   METHODOLOGY
                   This inspection is based on a document review, stakeholder interviews,
                   and a survey of health center grantees. All the data presented in this
                   report are self-reported and are not verified. To reduce bias in the
                   responses, we administered the survey anonymously. For a detailed
                   description of our methodology, see Appendix A.

                   To improve our understanding of risk management we reviewed
                   documents and interviewed various stakeholders (e.g., the National
                   Association of Community Health Centers, primary care associations,
                   and selected health centers). Based on these sources, we identified 16
                   risk management practices that health centers are likely to conduct
                   (some of which are required). See the primer on page 7 for a complete
                   list and description of these 16 practices, including which are required.
                   We used these 16 risk management practices as the basis for our survey
                   questions.



 OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                       5
I N T R O D        U C T     I O N


                    We surveyed a random sample of 248 health center grantees out of
                    835 grantees in FY 2002. To ensure that our results covered a broad
                    spectrum of health centers, we stratified the sample by the number of
                    patients served. The sample included deemed and nondeemed and
                    accredited and nonaccredited health centers. We received 175 replies to
                    our survey, for a response rate of 71 percent. Eighty-eight percent of
                    respondents to the survey were deemed. Because not all respondents
                    answered every question, the actual number of respondents varies by
                    question. Therefore, throughout the report we provide percentages
                    based on the actual number of respondents for each question.
                    Data limitations
                    Because the survey was anonymous and we obtained only self-reported
                    estimates about the number of patients served in FY 2002, we were
                    unable to determine which stratum each respondent fell into. As a
                    result, we could not weight the data, nor could we calculate confidence
                    intervals. Therefore, we cannot make statistical projections to the
                    entire population of health centers based on the survey data. The data
                    presented in the report are simple frequencies of the responses. We did
                    not independently verify any statements health center grantees made
                    on the survey. Finally, we are unable to conduct a nonrespondent
                    analysis because the survey was anonymous. Therefore, we cannot
                    estimate the level of bias among respondents. These limitations apply
                    to all data analysis and comparisons presented in the report.
                    Standards
                    We conducted this inspection in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency.




 OEI-01-03-00050    RISK MANAGEMENT   AT   H E A LT H C E N T E R S                     6
∆
   P R I M E R             O N                R I S K              M A N A G E M E N T

                   We identified 16 risk management practices that health centers are
                   likely to conduct to reduce medical malpractice claims and ensure
                   patient safety. We identified these practices based on interviews with
                   health centers, Federal officials, and other key stakeholders; a review of
                   relevant statutes, regulations, and policies; and a review of pertinent
                   literature regarding risk management in health care settings. Ten of
                   these 16 risk management practices are explicitly required either by
                   statute or by HRSA regulation or policy (as designated by an asterisk).
                   The Joint Commission requires all 16 of these practices.
                   Active quality improvement program*: Internal efforts to improve the
                   quality of care. These efforts may include reviewing clinical outcome
                   data and conducting long-term projects aimed at improving clinical care,
                   among others.
                   Appropriate use of clinical protocols*: Established guidelines for
                   providing clinical care that health care practitioners use. These
                   guidelines may be developed by professional organizations or by the
                   health center’s clinical staff.
                   Clear communication with patients*: Patients have a voice in
                   determining their care and receiving information about their care in a
                   way that they can comprehend. This includes providing translation
                   services when necessary.
                   Clear communication with providers: Health care providers receive clear
                   communication from the health center’s leadership about their roles and
                   responsibilities and they communicate clearly with one another.
                   Comprehensive patient medical records*: These records document the
                   care provided to the patient at the health center. They can be either
                   paper or electronic.
                   Credentialing of health care professionals*: The process of verifying that
                   health care providers meet all required educational and licensing
                   requirements. The health center or a third party may conduct this
                   activity.
                   Documentation of informed consent: Patients are adequately informed
                   about risks and benefits of their treatment.
                   Formal patient grievance mechanism*: A system to collect, analyze, and
                   address complaints received from patients and/or staff.




 OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                         7
P R   I M E R       O N        R     I S K                    M A    N A G   E M E N T


                   Internal incident reporting system: A system to collect and analyze
                   information on adverse events that occur within the health center
                   resulting from inappropriate care.
                   Ongoing peer review of patient cases: The review of medical records or
                   patient cases by health care professionals, either within the health
                   center or as outside consultants, to ensure that appropriate care was
                   provided.
                   Onsite assessment of risks and risk management practices: A process to
                   assess the potential risks of the health center and the health center’s
                   activities to reduce its risks. This assessment can be done by the health
                   center or by outside consultants.
                   Patient tracking system: A formal system, either electronic or paper, to
                   ensure that key patient information, such as test results, missed
                   appointments, and care at different health care institutions, is not
                   overlooked.
                   Privileging of health care professionals*: The process of verifying, on a
                   routine basis, that practitioners have the appropriate clinical
                   competencies and the ability to perform clinical procedures effectively.
                   Regular patient satisfaction survey*: A survey to assess patient
                   satisfaction with the level of service and clinical care that they received.
                   Regular staff training on risk management*: Staff receive either onsite or
                   offsite training on topics related to risk management.
                   Up-to-date policies and procedures on risk management*: Written
                   documents that explicitly describe a health center’s operations and
                   processes related to risk management.




 OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                          8
                s u R V E Y                                  S U L T S



    While health center respondents indicated that                                    We asked respondents to select the
                   all 16    risk management practices were                           three risk management practices
     important, they selected credentialing, quality                                  they considered to be the most
                                                                                      important for reducing medical
    improvement, comprehensive medical records,
                                                                                      malpractice claims and ensuring
       and clear communication with patients as the                                   patient safety. The range of
                                                           most important             responses among the 16 practices
                                                                                      varied from 3 to 51 percent. (See
                                                                                      Table 1,)

Table 1. The Level of Importnce of Risk Management Practices According to Respondents


                                                                       Percentage of Respondent    Percentage of Respondent
                                                                       Who Selec the Practice      Who Indica the Practce
                                                                       as One of the Three Most    Was Very or Somewat
  Risk Management Practice                                             Importnt                    Importnt
  Creentialing of Health Care Professionals


  Active Quality Improvement Program

  Comprehensive Patient Meical Recrds                                                                        100

  Clear Communication With Patients

  Patient Tracking System

  Ongoing Peer Review of Patient Cases

  Intemallncident Reporting System

  Appropriate Use of Clinical Protocols

  Regular Staff Training on Risk Management*

  Privileging of Health Care Professionals

  Onsite Assessment of Risks and Risk Management Practice

  Doumentation of Informed Consent

  Formal Patient Grievance Mechanism

  Regular Patient Satisfaction Survey

  Clear Communication With Providers

  Up-To-Date Polices/Procures on Risk        Management*

 Indicates risk management practices explicity required by statute or HRSA regulation or policy.
Source: Ofce of Evaluation and Inspeions' analysis of survey responses , 200.



           OEI- 01- 03- 00050           RISK MANAGEMENT AT HEALTH CENTERS
S U R V E Y 
 R E S U L T S


                   Credentialing. Credentialing is the process of verifying that a health
                   care practitioner meets all required educational and licensing
                   requirements; it is a requirement for all health centers.10 The health
                   center or a third party may conduct this activity. Respondents cited
                   credentialing most often (51 percent) as one of the three most important
                   risk management activities.

                   The level of importance respondents attributed to credentialing may
                   reflect the recent attention HRSA has given to this area. In 2001 and
                   2002, HRSA issued policy information notices emphasizing the
                   importance of credentialing and its expectations for health centers.
                   HRSA expects health centers to review and verify their practitioners’
                   qualifications, including professional credentials, references, and claims
                   history.11
                   Respondents commented that credentialing is the foundation for risk
                   management. It is essential that health centers have qualified staff to
                   ensure safe and appropriate treatment of their patients. One
                   respondent summed it up by writing “. . . the care you give can only be
                   as good as the providers you hire. . . .” Respondents also commented
                   that credentialing is important from a liability perspective, as it
                   documents that health centers carry out due diligence when hiring
                   health care providers.
                   Quality improvement programs. Quality improvement programs, which
                   are required by HRSA, include internal efforts to improve the quality of
                   the clinical care, such as analyzing clinical outcome data. Respondents
                   cited quality improvement programs second most often (42 percent) as
                   one of the three most important risk management activities.

                   Respondents commented that quality improvement activities allowed
                   them to identify areas needing improvement, thereby helping them to
                   prevent future problems. Respondents also commented that they
                   conduct many of their risk management practices as part of their
                   quality improvement program. These programs serve as a way to
                   integrate numerous risk management activities into one comprehensive
                   program. Finally, respondents mentioned that quality improvement
                   programs are important because they provide an objective means of
                   measuring and monitoring their performance over time.
                   Comprehensive patient medical records. Medical records document the
                   care provided to the patient at the health center, and HRSA requires
                   them for all health centers. The records can be either paper or
                   electronic. Respondents rated maintaining comprehensive patient

 OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                       10
S U R V E Y 
 R E S U L T S


                   medical records third (41 percent) among the three most important risk
                   management practices.

                   Respondents cited several reasons they consider medical records to be
                   important. First, when a malpractice claim is filed, medical records
                   serve as a key piece of evidence in determining whether appropriate
                   care was provided. Respondents indicated that malpractice claims can
                   often be quickly dismissed if medical records demonstrate that
                   appropriate care was provided. One respondent wrote “. . . if it isn’t
                   documented, it didn’t occur.” Second, respondents pointed out that
                   medical records play an important role in preventing errors, because
                   they serve as a complete record of the patient’s care and assist the
                   health care provider in making decisions about appropriate next steps.
                   Medical records are especially important if multiple providers are
                   working with a patient. Finally, respondents commented that medical
                   records can also be a rich source of information for quality improvement
                   programs and peer review efforts.
                   Clear communication with patients. Clear communication with patients,
                   which is also required by HRSA, involves making sure patients have a
                   voice in determining their care and providing them with information
                   about their care in a way they comprehend. This includes providing
                   translation services when necessary. Thirty-eight percent of
                   respondents cited clear communication with patients as one of the three
                   most important risk management practices.

                   Respondents cited several reasons why clear communication with
                   patients is critical. One common theme among respondents was the
                   opinion that, when patients understand their diagnosis and treatment,
                   they are more likely to be compliant with their treatment regimen.
                   Another common theme mentioned by several respondents was that
                   patients who understand their treatment and are active participants
                   are less likely to sue when something goes wrong.
                   All 16 practices. We asked respondents to give their opinion on the level
                   of importance of each of the 16 risk management practices.
                   Respondents varied little in their assessments. Between 92 and
                   100 percent of respondents assessed each practice as either very or
                   somewhat important. (See Table 1 on page 9.)

                   Several respondents identified other important risk management
                   practices in addition to the 16 we identified. These included obtaining
                   accreditation by the Joint Commission, monitoring medication usage,
                   implementing appropriate procedures for infection control, assessing

 OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                      11
 S U R V E Y                    R E S U L T S


                              performance of clinical staff, and documenting telephone calls with
                              patients.

                                                                                             We asked respondents to select
Respondents selected training, patient tracking,
                                                                                             the three risk management
 and peer review as the three most difficult risk                                            practices they considered to be the
             management practices to conduct                                                 most difficult to implement. (See
                                                                                             Table 2.)


 Table 2. Health Center Respondents' Self-Assessment of Their Performance for Risk Management
 Practices

                                                                                                                Percentage of Respondents
                                                                                 Percentage of Respondents      Who Indicated They Were
                                                                                 Who Selected the Practice as   Doing an Excellent or Good
                                                                                 One of the Three Most          Job at Conducting the
   Risk Management Practice                                                      Difficult to Conduct           Practice

   Regular Staff Training on Risk Management*                                                48                            54

   Patient Tracking System                                                                   42                            66

   Ongoing Peer Review of Patient Cases                                                      32                            70

   Onsite Assessment of Risks and Risk Management Practices                                  30                            58

   Active Quality Improvement Programs*                                                      26                            87

   Up-to-Date Polices/Procedures on Risk Management*                                         21                            70

   Comprehensive Patient Medical Records*                                                    17                            90

   Appropriate Use of Clinical Protocols*                                                    14                            82

   Credentialing of Health Care Professionals*                                               11                            95

   Internal Incident Reporting Systems                                                       10                            84

   Clear Communication With Patients                                                         8                             93

   Privileging of Health Care Professionals*                                                 7                             86

   Clear Communication With Providers*                                                       4                             90

   Formal Patient Grievance Mechanism*                                                       3                             88

   Regular Patient Satisfaction Survey*                                                      3                             82

   Documentation of Informed Consent                                                         1                             89


 *Indicates risk management practices explicitly required by statute or HRSA regulation or policy.
 Source: Office of Evaluation and Inspections' analysis of survey responses, 2004.


    OEI-01-03-00050           RISK MANAGEMENT    AT   H E A LT H C E N T E R S                                                      12
S U R V E Y         R E S U L T S 





                   Training. Training, which is required by HRSA, can be provided either
                   onsite or offsite and can address a wide array of topics related to risk
                   management. Respondents cited regular staff training most often
                   (48 percent) as one of the three most difficult risk management
                   activities to conduct.

                   Among the reasons respondents cited were the lack of staff, money, and
                   training materials. Training is often deferred to a later date, since
                   providing care is perceived to be more important and staff time is
                   limited.
                   Patient tracking. Patient tracking, which is not required by HRSA, is a
                   formal system, either electronic or paper-based, used to ensure that key
                   patient information is not overlooked. Key information includes test
                   results, missed appointments, and care at different health care
                   institutions. Respondents ranked patient tracking second (42 percent)
                   among the three most difficult activities to conduct.

                   Respondents commonly cited the lack of information technology as a
                   reason this activity is difficult to conduct. Respondents also commented
                   that even if they had the appropriate information technology, it would
                   require time, which respondents reported is often in short supply, to
                   input data and monitor the system. Finally, respondents commented
                   that some patients are homeless and/or transient, making followup
                   difficult under any circumstances.
                   Peer review. Peer review, also not required by HRSA, involves the
                   review of medical records or patient cases by health care professionals,
                   who are either within the health center or outside consultants, to
                   ensure that appropriate care was provided. Respondents ranked peer
                   review third (32 percent) among the three most difficult activities to
                   conduct.

                   Respondents commented again that time and resources were an issue
                   that made peer review difficult. Several respondents mentioned that
                   the staff view patient care as a higher priority and may be unwilling to
                   spend time conducting peer review. In addition, several respondents
                   mentioned that with a small staff, practitioners are often uncomfortable
                   reviewing one another. In fact, some respondents indicated that they
                   have only two to three staff per site.
                   All 16 practices. While 90 percent of respondents thought that,
                   overall, they were doing an excellent or good job at conducting risk

 OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                        13
S U R V E Y         R E S U L T S


                   management, the portion of respondents who felt they were doing
                   either an excellent or good job for each of the 16 practices ranged from
                   a low of 54 percent to a high of 95 percent. (See Table 2 on page 12.)

                   For additional survey data on these assessments by the size of the
                   respondents, see Table 10 in Appendix B.12

      Health center respondents indicated that           Respondents experienced
  inadequate financial resources, staffing, and          several challenges that
                                                         prevented them from doing all
training are key challenges to conducting risk
                                                         that they would like in terms of
                                 management
                                                         risk management. In fact,
                   40 percent of respondents indicated that there are risk management
                   practices that they would like to conduct, but are currently unable to.
                   These respondents mentioned additional training, onsite reviews,
                   peer review, and patient tracking as activities they would like to
                   conduct.13
                   To better understand these challenges, we provided respondents with
                   a list of potential challenges and asked them to indicate to what
                   extent each hindered their ability to conduct effective risk
                   management.

                   For additional survey data on these challenges by the size of
                   respondents, see Table 11 in Appendix B.
                   Financial resources. Eighty-four percent of respondents selected lack of
                   financial resources as a major or moderate challenge. Financial
                   resources have consequences for staffing, training, and information
                   technology, all of which affect a health center’s ability to conduct risk
                   management.

                   Financial resources are a concern even for deemed respondents.
                   Deemed health centers are covered under the Federal Tort Claims Act
                   for the purposes of medical malpractice claims; therefore, they do not
                   have to purchase comprehensive private malpractice insurance. This
                   results in savings for the health center. Eighty-eight percent of
                   respondents to the survey were deemed. Of those deemed respondents,
                   83 percent reported that the lack of financial resources was a major or
                   moderate challenge. Eighty-six percent of nondeemed respondents
                   reported that the lack of financial resources was a major or moderate
                   challenge.

                   Still, 73 percent of deemed respondents indicated that being deemed
                   had to a great or moderate extent improved their ability to conduct risk

 OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                       14
S U R V E Y         R E S U L T S


                   management. This may be in part due to the savings from not having to
                   purchase private malpractice insurance. Deemed respondents reported
                   saving $228,000 per year on average, with individual respondents
                   saving between $7,500 and $2 million.

                   However, only 47 percent of deemed respondents reported that they
                   were using these savings, in whole or in part, for risk management
                   practices. Of those using these savings for risk management, common
                   activities included hiring additional staff, conducting more staff
                   training, implementing a quality improvement program, seeking
                   accreditation, and hiring outside consultants.

                   Twenty-two percent of deemed respondents indicated that they were
                   not using these savings for risk management and 31 percent were
                   unsure how they were using these savings. HRSA’s policy is unclear
                   on how much of these savings should be used for risk management;
                   HRSA’s Policy Information Notice 1999-08 states:
                         [HRSA] expects as health centers begin to realize savings in
                         malpractice insurance costs due to coverage under the FTCA
                         [Federal Tort Claims Act], centers will reinvest some of the
                         savings to target malpractice risk reduction.

                   This same policy states that health centers may use these savings for
                   activities within the scope of the grant:
                         For example, these funds may be used to increase the number
                         of users, increase the range of services provided . . . or to
                         implement administrative improvements (including clinical
                         compensation, clinical quality improvement/risk management
                         activities).

                   It is important to point out that it is difficult for health centers,
                   especially those that have been deemed for several years, to know how
                   much they are actually saving per year. HRSA does not require health
                   centers to track their savings. In fact, it would be difficult for them to
                   do so, because it would require health centers to have an understanding
                   of their local insurance markets so they could estimate the current cost
                   of malpractice insurance. Health centers do provide HRSA with their
                   annual budgets; however, not all risk management activities are easily
                   accounted for in terms of financial expenditures, such as clear
                   communication with patients and maintaining up-to-date policies and
                   procedures.



 OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                       15
S U R V E Y         R E S U L T S


                   Staffing. Eighty-three percent reported that a lack of dedicated full-time
                   equivalent staff for risk management was a major or moderate
                   challenge. Only 19 percent of respondents reported that they have a
                   dedicated staff position, either full- or part-time, for risk management.

                   Instead, most respondents reported that they rely on their executive
                   directors, compliance officers, physicians, and nurses to play key roles
                   in risk management for the health center. However, these individuals
                   are also busy managing other responsibilities and may have difficulty
                   finding the time or obtaining the necessary expertise for risk
                   management activities. This is especially the case for clinical staff:
                   82 percent of respondents indicated that the lack of clinical staff time
                   was a major or moderate challenge to conducting risk management.
                   Training. Sixty-four percent of respondents indicated that training was
                   a major or moderate challenge. Lack of training can affect the level of
                   expertise among staff for risk management and, in fact, 64 percent
                   responded that the lack of expertise among staff was a major or
                   moderate challenge.

                   Notwithstanding these challenges, 69 percent of respondents indicated
                   that their staff received training on risk management in FY 2003.
                   Fifty-three percent responded that their staff received training no less
                   than once every few months, and 33 percent said their staff received
                   training once a year.

                   Respondents indicated that they received training from a variety of
                   sources. Fifty-eight percent received training from their own staff,
                   25 percent from State primary care associations, 30 percent from the
                   National Association of Community Health Centers, and 27 percent
                   from private insurance companies.

                   HRSA also provides training to health centers. However, only
                   13 percent of respondents reported that they received training from
                   HRSA (including both regional and/or central office), even though HRSA
                   provides several resources. (See Table 3 on page 17 for a complete list of
                   HRSA’s resources.) Respondents varied in how satisfied they were with
                   the risk management resources HRSA provides. They appeared to be
                   the most satisfied with HRSA policy information notices, the Federal
                   Tort Claims Act helpline, and accreditation from the Joint Commission.
                   (See Table 3 on page 17.)




 OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                      16
               S U R V E Y                    R E S U L T S


                                          Notably, respondents reported that they had no experience with many
                                          HRSA resources. However, some of these resources were available only
                                          on a limited basis. Nevertheless, nearly 45 percent reported that they
                                          had no experience with the publication “Risk Management,” published



Table 3. Health Center Respondents' Satisfaction w ith Risk M anagem ent Assistance from HRSA



                                                                                            Percentage of               Percentage of
                                                                                            Respondents W ho            Respondents W ho
                                                                                            Indicated They W ere        Indicated No
                                                                                            Com pletely or Som ew hat   Experience W ith the
  HRSA Resources                                                                            Satisfied                   Resource

  HRSA's policy inform ation notice on credentialing and privileging (Policy
                                                                                                      79                          6
  Inform ation Notice 2002-22)


  Federal Tort Claim s Act helpline (1-866-FTCA HELP)                                                 78                         28


  HRSA's program expectation (Policy Inform ation Notice 1998-23)                                     74                          7


  Accreditation by the Joint Com m ission on Accreditation of Healthcare
                                                                                                      74                         49
  organizations supported by HRSA


  HRSA's online resources (i.e., W eb site)                                                           63                         23


  National Association of Com m unity Health Centers' m alpractice risk
                                                                                                      59                         36
  m anagem ent consultation line (1-888-800-3772), funded by HRSA


  Risk m anagem ent recom m endations provided by a review of Federal
  Tort Claim s Act m edical m alpractice claim s by HRSA's Division of                                58                         46
  Clinical Quality (form erly the Center for Risk Managem ent)*


  Federal Tort Claim s Act claim s-related site visits initiated by HRSA's
                                                                                                      50                         71
  Division of Clinical Quality (form erly the Center for Risk Managem ent)*


  HRSA's distribution of the publication, "Risk Managem ent," printed by
                                                                                                      48                         45
  the Departm ent of Legal Medicine, Arm ed Forces Institute of Pathology

  Referral to appropriate risk m anagem ent resources by HRSA project
                                                                                                      46                         49
  officer


  Incident reporting system (i.e., Doctor Quality)*                                                   39                         51


Note: The percentage of respondents who indicated that they were com pletely or som ewhat satisfied is out of those
respondents who indicated they had experience with the resource. The percentage of respondents who indicated they
had no experience with the resource is out of the total num ber of survey respondents.

*Indicates that this service is available only on a lim ited basis.

Source: Office of Evaluation and Inspections' analysis of survey responses, 2004.

                  OEI-01-03-00050         RISK MANAGEMENT   AT   H E A LT H C E N T E R S                                                  17
S U R V E Y          R E S U L T S


                  by the Armed Forces Institute of Pathology and distributed to all health
                  centers by HRSA. Thirty-six percent of respondents indicated no
                  experience with the risk management telephone consultation line,
                  which is also available to all health centers. (See Table 3 on the
                  previous page.)

                  Even with these resources, 87 percent of respondents indicated that
                  they would like to receive more training. Topics for additional training
                  included documentation, incident reporting, and patient records.
                  Respondents also called for general or overall help in developing a risk
                  management program. Several respondents were looking for a better
                  understanding of the basics of a risk management program and how to
                  implement such a program in their health center.




OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                      18
∆      R E S P O N D E N T                                 C O M M E N T S



                                                                        Twenty-five percent of
Health center respondents identified promising
                                                                        respondents offered their
  approaches to conducting risk management                              suggestions about promising
                                                                        approaches. Below are some
                                                                        highlights.
                      Onsite Assessments
                           o 	 Proactively doing self-assessments of some departments and
                               processes.

                            o 	 We do our own periodic environment of care “walk throughs”
                                using the same tool as our State licensing auditors and the
                                Joint Commission use. This keeps us on our toes.

                            o 	 We started emergency room site visits by the key management
                                during night duty hours. Assessment of medical practices,
                                billing procedures, medical supply, security of the building and
                                equipment, patient satisfaction, and adherence with the
                                organizational polices and procedures is performed during each
                                visit.

                            o 	 Daily emergency medical audit report.

                            o 	 Monthly risk assessment walk throughs are conducted by our
                                safety committee and are designed to integrate needs for many
                                risk-surveillance areas: infection control, emergency
                                medication use, quality control log compliance, facility and the
                                Office of Occupational Safety and Health Administration
                                hazards, and others. These findings are tracked through a
                                larger performance improvement committee responsible for
                                initiating followup activities where improvements or risk
                                reduction is needed.

                            o 	 We have implemented monthly safety audits at all sites—both
                                clinical and nonclinical. Different staff members conduct the
                                audit each month and report back to quality review
                                management department.

                            o 	 We requested from the general liability insurance company a
                                loss control assessment. It was performed during 2003.
                                Recommendations were properly addressed. A followup visit
                                and risk management conference was scheduled for March
                                2004.


    OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                                 19
R 	E S P O N D       E N T            C O M M E N T                  S


                   Quality Improvement Programs
                        o 	 Part of a Health Center Network, Council of Community
                             clinics, that facilitates/coordinates/supports coordinated
                             quality improvement programs.

                         o 	 The rate of medication errors has [been] reduced due to having
                             an additional pharmacist on board. The double checking of
                             dispensing drugs has greatly reduced high volume area and
                             enhanced quality control of dispensing the wrong medication to
                             our patients.

                         o 	 We are a large prenatal provider and we do 100 percent chart
                             review on all prenatal charts at 28 weeks to ensure a GTT
                             [glucose tolerance test] has been run and results documented.
                             Lack of GTT and diagnosing gestational diabetes can lead to
                             complications, which we want to avoid by making sure we do
                             this test.
                         o 	 Yearly review by life cycle and risk groups of preventive care
                             guidelines and health maintenance issues promotes
                             identification of problem areas and medical plan to address the
                             problem.
                   Incident Reporting
                         o 	 We have an active medical safety committee where we review
                             all adverse drug events and potential adverse drug events.
                             These are computerized in an incident reporting system.

                         o 	 Incident reports are summarized on a multi-year basis for
                             trends and improvements.

                         o 	 New incident report form is easy to use—requires mostly
                             checking specific categories—categories are based on meta-
                             analysis of incident reports filed over last several years.
                   Patient Satisfaction
                        o 	 Our satisfaction survey includes children K-5 grades. Along
                            with the satisfaction survey, we also survey parents, teachers,
                            administrator, staff at the school and we use a standard health
                            behavior survey in children 4-5 (grades) to evaluate
                            effectiveness of health prevention activities.

                         o 	 Patients who transfer medical records are mailed a survey to
                             determine the reason for leaving our practice. The survey
                             results are rewarded [reviewed] by the board of directors,


 OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                        20
R 	E S P O N D       E N T            C O M M E N T                  S


                              administrative staff, and provider and support staff.
                              Corrective action is implemented when appropriate.

                         o 	 Direct line for patients with complaints to the chief executive
                             officer who actively responds to such complaints. Believe this
                             has defused potential problems at the early stage.

                         o 	 The center utilizes a public board forum where the public gets
                             to meet the board of directors and directors of services at least
                             2 times per year. This unique forum allows the community at
                             large, and the patients to come and listen to the board speak
                             about the changes and challenges in the provision of care. The
                             patients and the community-at-large also get the opportunity
                             to voice their opinions on the care received, services they need,
                             and satisfaction in general.
                   Training
                         o 	 Risk management topic at every monthly administration staff
                             meeting.

                         o 	 Annual in-service training with staff, annual education day
                             with all employees to go over Office of Occupational Safety and
                             Health Administration safety and required in-services.

                         o 	 Conducting weekly case conferences with clinicians from
                             medicine, mental health, and social work to review patients
                             with non-adherence issues and/or behavior problems that pose
                             a potential liability risk to the organization and how to deal
                             with those patients moving forward.
                   Medical Records
                        o 	 Electronic medical record with drug interaction warnings,
                            reminder modules, and other decision support tools.
                         o 	 We are currently developing and implementing an electronic
                             medical record program. This will enhance and facilitate
                             quality improvement and other monitoring capabilities as well
                             as improve client assessment and care by use of required fields
                             for key/critical assessment, accreditation, preventive care, and
                             documentation requirements.
                   Peer Review
                        o 	 Use of former medical director (now retired) to conduct peer
                            review.



 OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                        21
R 	E S P O N D 
E N
                  	 T                 C O M M E N T                  S


                         o 	 Have set up a system of peer review whereby providers
                             exchange pertinent sections of medical record by mail (because
                             of great distance between our 7 clinics). The process ends with
                             the audit tool returned to the credentialing department and
                             recorded for each individual.

             Health center respondents offered                           Thirty-nine percent of
       recommendations to HRSA regarding risk                            respondents offered
                                                                         recommendations to HRSA.
                                 management
                                                                         Below are some highlights.
                   Training and Technical Assistance
                         o 	 Seminars so that health center staff can network with HRSA
                             staff.

                         o 	 Try to utilize technology to offer training on risk management
                             (video conferencing, satellite broadcasts).

                         o 	 Get the information out on available resources.

                         o 	 Most risk management information is hospital/inpatient based.
                             Would be nice to have HRSA provide information related to
                             health centers’ risk management issues on a regular basis.

                         o 	 Work more closely with the National Association of
                             Community Health Centers on this. The National Association
                             of Community Health Centers provides great training, in
                             general.

                         o 	 Develop training that dedicates time to develop/review risk
                             management polices and procedures, or gives a clear step-by-
                             step approach.
                   Policies and Guidance
                         o 	 Make the Policy Information Notices more user friendly.

                         o 	 Quick reference handouts for staff updates.

                         o 	 Seek out best practices and disseminate.

                         o 	 Sample policies.

                         o 	 Incorporate a strong risk management program into the
                             requirements for section 330 funding and performance review
                             calculations.

                         o 	 Specialized risk management for mental health, dental, and
                             obstetrics/gynecology.


 OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                                    22
R 	E S P O N D       E N T            C O M M E N T                  S


                   Federal Tort Claims Act
                        o 	 More feedback from HRSA after a FTCA [Federal Tort Claims
                            Act] case is filed concerning progress, outcome, and
                            suggestions for improvements.

                         o 	 Should provide numbers of the most cases of malpractice suits
                             filed and trends.

                         o 	 Cover any remaining gaps in FTCA [Federal Tort Claims Act]
                             coverage such as volunteers, consultants, and sexual
                             harassment.
                   Medical Records
                        o Invest in electronic medical records.

                   Incident Reporting
                         o 	 Develop a nonpunitive culture on local, State, and Federal
                             level for a reporting system. This would help to identify and
                             quantify possible medical errors or sentinel events in a health
                             center.
                   Peer Review
                        o 	 For rural/sparse areas establish a network that encourages
                            peer review.
                   On-Site Assessment
                        o 	 Onsite assessment of the center’s risks (physical and
                            nonphysical risks, nonclinical and clinical).




 OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                       23
∆
   O P P O R T U N I T I E S                                       F O R   I M P R O V E M E N T

                   Respondents indicated that they experience several challenges in
                   conducting risk management. Given the importance of risk
                   management from both a patient safety and a financial perspective, it
                   would be helpful for HRSA to explore these challenges in greater depth
                   to ensure that all health centers are, in fact, able to implement and
                   maintain effective and comprehensive risk management programs.

                   The fundamental challenge according to respondents is the lack of
                   financial resources. This has implications for training, staffing, and
                   other risk management activities. Even deemed respondents reported
                   that financing was an issue. Yet, almost a third of deemed
                   respondents did not know if they had reinvested their savings in risk
                   management and 22 percent indicated that they did not reinvest it in
                   risk management. Although HRSA’s policy is unclear as to its
                   expectations for reinvesting in risk management, it is reasonable to
                   expect deemed health centers to spend some portion of their savings
                   on risk management. Toward that end, HRSA may want to ensure
                   that all health centers are investing adequately in risk management.
                   For deemed health centers in particular, HRSA may want to
                   determine the amount of savings these health centers realize from
                   being deemed and ensure that they are reinvesting some portion of
                   these savings into risk management.

                   In addition, respondents indicated that the lack of training was a
                   challenge that affected their ability to conduct risk management.
                   Although HRSA has provided opportunities for training, it is clear that
                   health centers want more. HRSA may want to develop a
                   comprehensive, ongoing training agenda for health centers on risk
                   management.

                   Finally, HRSA may also want to explore creative, inexpensive ways to
                   assist health centers. These could include disseminating best practices
                   or a newsletter; developing tool kits that contain sample policies and
                   procedures; developing Web-based training; and encouraging health
                   centers to take advantage of existing HRSA-funded networks, such as
                   the Healthy Disease Collaborative and the Integrated Service Delivery
                   Initiative, as a vehicle to share resources and information on risk
                   management.

                   In accomplishing all these goals, we encourage HRSA to work with its
                   partners, such as the State Primary Care Associations and other
                   regional and national associations with an interest in health centers.



 OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                          24
O P P O R T U N I T I E S                                F O R       I M P R O V E M E N T        




                   AGENCY COMMENTS
                   HRSA responded positively to the report and its comments reflect its
                   commitment to improving risk management for health centers. For
                   HRSA’s complete response to the report, see the following section.

                   HRSA has established a new goal that, by 2010, 100 percent of health
                   centers will participate in risk management training. HRSA indicated
                   that it has several initiatives planned or underway to meet this goal.

                   HRSA is planning a risk management workshop at the Annual National
                   Association of Community Health Centers Policy and Issues Forum in
                   March 2005. This workshop will feature discussions of risk
                   management practices, existing risk management resources, and the
                   costs associated with conducting risk management. At this workshop,
                   HRSA will provide health centers with estimates on the potential
                   savings from participating in the FTCA deeming process. HRSA also
                   intends to encourage health centers to reinvest those savings in risk
                   management. It is exploring additional opportunities to conduct similar
                   workshops on risk management.

                   HRSA is in the process of developing a comprehensive risk management
                   training agenda for health centers. This training agenda will address:
                   (1) HRSA’s expectations for risk management, (2) mechanisms in which
                   HRSA can assist health centers to obtain continuing medical and
                   professional education, and (3) cost estimates of establishing continuing
                   education. HRSA plans to have a comprehensive risk management
                   agenda in place by June 2005.




 OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                           25
∆   A G E N C Y              C O M M E N T S




OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S   26
A G   E N     C Y    C O     M M E N T                         S 





 OEI-01-03-00050    RISK MANAGEMENT   AT   H E A LT H C E N T E R S   27
A G   E N     C Y    C O     M M E N T                         S 





 OEI-01-03-00050    RISK MANAGEMENT   AT   H E A LT H C E N T E R S   28
A G   E N     C Y    C O     M M E N T                         S 





 OEI-01-03-00050    RISK MANAGEMENT   AT   H E A LT H C E N T E R S   29
∆   A P P E N D I X                      ~           A



                  Methodology

                  Document Review
                  We obtained and reviewed relevant documents associated with risk
                  management and health centers, such as laws, regulations, policies,
                  guidance documents, and training materials. These documents included:

                        o 	 Federally Supported Health Center Assistance Acts of 1992 and
                            1995

                        o 	 42 C.F.R. Subpart C-Grants for Operating Community Health
                            Centers

                        o 	 HRSA’s Policy Information Notices (1998-23, 1999-08, 2002-22,
                            2002-24, 2002-32)

                        o 	 Joint Commission’s Comprehensive Accreditation Manual for
                            Ambulatory Care

                        o 	 HRSA’s Federal Tort Claims Act Clinician’s Handbook

                        o 	 HRSA’s Deeming and Re-Deeming Application Forms

                        o 	 HRSA’s Primary Care Effectiveness Review Protocol (March
                            2000)

                        o 	 Resources provided to health centers during HRSA-sponsored
                            training on risk management by the National Association of
                            Health
                  Stakeholder Interviews
                  We interviewed experts within and outside of HRSA to learn about risk
                  management and to identify potential key risk management practices to
                  use on the survey. Persons interviewed included:

                          o 	 HRSA officials

                          o 	 Representatives from the National Association of Community
                              Health Centers

                          o 	 Representatives from several State Primary Care Associations

                          o 	 Representatives from the Association of Healthcare Risk
                              Managers

                          o 	 Representatives from the Joint Commission



OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                       30
                A      P    P E
                              
 N
                                	 D        I X ~ A


                                                        o 	 Representatives from the Management Assistance
                                                            Corporation, a HRSA contractor that provides clinical risk
                                                            assessment for health centers

                                                        o 	 Representatives from private malpractice insurance companies
                                                            that offer malpractice insurance and risk management
                                                            services for health care facilities, including Princeton Risk
                                                            Protection, Inc.
                                            Survey of Health Centers
                                            We surveyed a stratified random sample of 248 health center grantees out
                                            of the 835 grantees that received funding from HRSA in FY 2002. We
                                            chose this sample size to ensure a precision of +/- 5 percent at the
                                            95-percent confidence level. However, later methodological limitations
                                            prevented us from generalizing to the entire population. (See section on
                                            data limitations on page 28.)

                                            We drew the sample from a list provided by HRSA. Prior to pulling the
                                            sample, we eliminated 17 health centers from the original 852 in the list
                                            provided by HRSA because we lacked information on the number of
                                            patients served. (See Table 4.)

                                            We drew a stratified random sample from the 832 remaining health
                                            centers. We divided the population into three strata based on the number
                                            of patients served in FY 2002. (See Table 4 for the strata.) We defined
                                            the strata based on the way the data were distributed. From each of the
                                            first two strata, we randomly selected 91 health centers from each of the
                                            totals. We included all 86 health centers from the third stratum. This
                                            resulted in a total sample of 268 health centers. We eliminated 20 health
                                            centers from the 268 because their names, in whole or in part, matched
                                            those of health care organizations that are part of ongoing investigations

Table 4. Sample Design

                                                                   Revised                                     Centers That
 Strata by Number of Patients             Population of            Population of              Sample of        Received a     Number of Survey
 Served in FY 2002                        Health Centers           Health Centers             Health Centers   Survey         Respondents*
  < 5,000 patients                               226                          226                  91                89             55

  5,000 - 30,000 patients                        523                          523                  91                83             60

   > 30,000 patients                              86                           86                  86                76             50

 Unknown                                          17                            0                  0                 0              10
 51 100 Teachers                                4 000                                              0                 0               0
 Overall Total                                  852                          835                  268               248            175
*The data in this column were self-reported by respondents and not based on actual numbers provided by HRSA.

Source: Office of Evaluation and Inspections' analysis of survey responses, 2004.



                       OEI-01-03-00050      RISK MANAGEMENT   AT   H E A LT H C E N T E R S                                         31
A   P   P E N D       I X ~    A


                      conducted by the Office of Investigations within the Office of Inspector
                      General. This resulted in a final sample size of 248.

                      The survey contained 43 questions regarding the importance of the
                      16 specific risk management practices, a self-assessment of how centers
                      were doing on each of these practices, and challenges to implementing
                      these practices. We identified these 16 risk management practices and
                      potential challenges from our document review, which included applicable
                      HRSA policies and regulations and risk management standards and
                      training materials from other private organizations and Federal agencies.
                      We also identified these practices and challenges from interviews with
                      key stakeholders.

                      We pretested the survey with two health centers. We addressed the
                      survey to the health centers’ executive directors as identified by HRSA.
                      In the cover letter we asked the executive directors to complete the
                      survey.

                      To encourage a high response rate, we sent an introductory letter to each
                      health center in our sample explaining the purpose of the survey. In the
                      cover letter, we emphasized that the survey was anonymous. (The survey
                      was anonymous with the intent to reduce bias in our survey results.) In
                      our introductory letter we also included a brief description of the Office of
                      Evaluation and Inspections and a two-page summary of the inspection.

                      One week later we mailed the first survey. We sent a second survey
                      1 month later. All health centers received the second survey because we
                      were unable to determine which health centers had already responded
                      due to the anonymity of the respondents. Finally, 1 month later, we
                      followed up with telephone calls to all health centers for which we could
                      readily obtain working telephone numbers.

                      We received 175 responses to the survey, for a response rate of 71 percent.
                      (See Table 4 on the previous page.) Because not all respondents answered
                      every question, the actual number of respondents varies by question.
                      Therefore, throughout the report we provide percentages based on the
                      actual number of respondents for each question.

                      We conducted subanalysis by the self-reported number of patients served
                      (i.e., small and medium versus large) and by deemed status (i.e., deemed
                      versus nondeemed) for selected questions.

                      We provide self-reported, descriptive information on the respondents.
                      (See Tables 5, 6, 7, 8, and 9 on the following pages.)


    OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                        32
A   P   P E N D       I X ~    A


                      Data Limitations. Because the survey was anonymous and we obtained
                      only self-reported estimates about the number of patients served in
                      FY 2002, we were unable to correctly determine which stratum each
                      respondent fell into. As a result, we could not weight the data, nor could
                      we calculate confidence intervals. Therefore, we cannot make statistical
                      projections to the entire population of health centers based on the survey
                      data. The data presented in the report are simple frequencies of the
                      responses. We did not independently verify any statements health
                      centers made on the survey. Finally, we are unable to conduct a
                      nonrespondent analysis because the survey was anonymous. Therefore,
                      we cannot estimate the level of bias among respondents. These
                      limitations apply to all data analysis and comparisons presented in the
                      report.




    OEI-01-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                      33
A    P      P E N D           I X ~        A        





    Table 5. Percentage of Health Center Respondents by Type*


      Type of Health Center                     Percentage of Respondents Percentage of Sample Percentage of Population

      Community Health Center                                     89                       89                       88

      Migrant Health Center                                       21                       19                       15

      Health Care for the Homeless                                16                       20                       18

      School-Based Health Center                                  1                         1                        4

      Public Housing Residents                                    7                        12                        9

    *Numbers exceed 100% because a health center may be more than one type.

    Source: Office of Evaluation and Inspections' analysis of survey responses, 2004.




    Table 6. Percentage of Health Center Respondents by Amount of HRSA Section 330 Funding
    Received in FY 2002*


      Amount of Funding in FY 2002               Percentage of Respondents         Percentage of Sample   Percentage of Population

      < $500,000                                                  19                       25                       21

      $500,000-$1 million                                         32                       25                       30

      $1-$2 million                                               19                       21                       29

      > $2 million                                                30                       29                       21

    *Numbers do not add up to 100% due to rounding.


    Source: Office of Evaluation and Inspections' analysis of survey responses, 2004.





    Table 7. Percentage of Health Center Respondents by Number of Delivery Sites in FY 2002*

                                                                                                                  Percentage of
      Number of Delivery Sites                   Percentage of Respondents           Percentage of Sample          Population

      1                                                             22                          19                       21

      2-5                                                           44                          43                       47

      >5                                                            35                          38                       32

    *Numbers do not add up to 100% due to rounding.


    Source: Office of Evaluation and Inspections' analysis of survey responses, 2004.





    OEI-01-03-00050            RISK MANAGEMENT     AT   H E A LT H C E N T E R S                                                     34
       A   P    P E N D           I X ~        A          





Table 8. Percentage of Deemed Health Center Respondents

                                                   Percentage of
  Federal Tort Claims Act Status                   Respondents                       Percentage of Sample   Percentage of Population

  Deemed                                                  88                                 74                       73

  Nondeemed                                               12                                 26                       27

Source: Office of Evaluation and Inspections' analysis of survey responses, 2004.




Table 9. Percentage of Health Center Respondents Accredited by the Joint Commission


  Joint Commission Status                    Percentage of Respondents Percentage of Sample Percentage of Population

  Accredited                                                   51                                 34                    34

  Nonaccredited                                                49                                 66                    66

Source: Office of Evaluation and Inspections' analysis of survey responses, 2004.




        OEI-01-03-00050          RISK MANAGEMENT     AT   H E A LT H C E N T E R S                                                     35
      ∆           A P P E N D I X                              ~           B



                                        Additional Analysis by Size of Respondents



Table 10. The Level of Importance of Risk Management Practices by the Size of Health Center
Respondents*



                                                                               Percentage of Small and       Percentage of Large
                                                                               Medium Respondents Who        Respondents Who Indicated
                                                                               Indicated They Were Doing     They Were Doing an Excellent
                                                                               an Excellent or Good Job at   or Good Job at Implementing
  Risk Management Practice                                                     Implementing This Practice    This Practice

  Regular Staff Training on Risk Management                                               50                             66

  Privileging of Health Care Professionals                                                82                             96

  Regular Patient Satisfaction Survey                                                     78                             92

  Up-To-Date Polices/Procedures on Risk Management                                        66                             78

  Active Quality Improvement Programs                                                     85                             96

  Comprehensive Patient Medical Records                                                   86                             96

  Onsite Assessment of Risks and Risk Management Practices                                56                             66

  Internal Incident Reporting Systems                                                     81                             90

  Credentialing of Health Care Professionals                                              94                            100

  Clear Communication With Patients                                                       91                             96

  Documentation of Informed Consent                                                       88                             90

  Clear Communication With Providers                                                      90                             90

  Formal Patient Grievance Mechanism                                                      88                             88

  Appropriate Use of Clinical Protocols                                                   83                             78

  Ongoing Peer Review of Patient Cases                                                    73                             68

  Patient Tracking System                                                                 69                             61

Source: Office of Evaluation and Inspections' analysis of survey responses, 2004.

*We defined the size of a health center based on the number of patients served in FY 2002 as reported by respondents.
Small centers reported serving fewer than 5,000 patients, medium centers reported serving between 5,000 and 30,000
patients, and large centers reported serving more than 30,000 patients.




             OEI-01-03-00050            RISK MANAGEMENT   AT   H E A LT H C E N T E R S                                                36
         A    P   P E N D          I X ~         B     





  Table 11. Challenges to Conducting Risk Management by the Size of Health Center Respondents*


                                                                             Percentage of Small
                                                                             and Medium            Percentage of        Percentage of All
                                                                             Respondents Who       Large Respondents    Respondents Who
                                                                             Indicated it Was a    Who Indicated it     Indicated it Was a
                                                                             Challenge to a        Was a Challenge to   Challenge to a
                                                                             Major or Moderate     a Major or           Major or Moderate
  Challenges to Risk Management                                              Extent                Moderate Extent      Extent

  Lack of financial resources                                                          86                 80                   84

  Lack of dedicated full-time equivalent staff                                         85                 74                   83

  Lack of clinical staff time                                                          86                 74                   82

  Lack of expertise among staff regarding risk management                              66                 60                   64

  Lack of staff training on risk management                                            68                 54                   64

  Lack of technical assistance                                                         54                 40                   49

  Lack of clear requirements from HRSA                                                 49                 44                   47

  Lack of commitment by the health center's governing board                            13                 2                    10

Source: Office of Evaluation and Inspections' analysis of survey responses, 2004.

*We defined the size of a health center based on the number of patients served in FY 2002 as reported by respondents.
Small centers reported serving fewer than 5,000 patients, medium centers reported serving between 5,000 and 30,000
patients, and large centers reported serving more than 30,000 patients.




             OEI-01-03-00050         RISK MANAGEMENT   AT   H E A LT H C E N T E R S                                            37
                     This report was prepared under the direction of Mark R. Yessian , Ph.
                     Regional Inspector General for Evaluation and Inspections in the Boston
                     regional offce , and Joyce M. Greenleaf, MBA , Assistant Regional
                     Inspector General. Other principal Office of Evaluation and Inspections
                     staff who contributed include:
                     Aimee Golbitz Team Leader
                     Norman Han       Program Analyst

                     Sara Schulman Program Analyst
                     Michael Flood     In tern
                     Alan Levine     Program Specialist
                     Elise Stein Director, Public Health and Human Services Branch
                     Barbara Tedesco       Mathematical Statistician




OEI- 01- 03- 00050   RISK MANAGEMENT AT HEALTH CENTERS
  ∆         E N D N O T E S




                    1   Authorized under section 330 of the Public Health Service Act.

                    2   U.S.C. Title 28, Part VI, Chapter 171.

                    3   The Federally Supported Health Center Assistance Act of 1992 (P.L.
                         102-501) provided initial coverage to eligible health centers under the
                         Federal Tort Claims Act (FTCA) for a 3-year period. This provision
                         became permanent under the Federally Supported Health Center
                         Assistance Act of 1995 (P.L. 104-73).

                    4   Typically health centers still have to purchase additional medical
                         malpractice insurance to cover certain employees not covered under
                         the FTCA and claims from years not covered under the FTCA. This
                         insurance is referred to as gap or supplemental insurance and
                         generally is less expensive than comprehensive medical malpractice
                         insurance.

                    5   Funds that are not spent remain in this fund for the following year.

                    6   “Medical Malpractice: Federal Tort Claims Act Coverage Could Reduce
                          Health Centers’ Costs,” Government Accountability Office, April 1997
                          (GAO/HEHS-97-57).

                    7   Federally Supported Health Centers Assistance Act of 1992 and 1995
                         (P.L. 102-501).

                    8   “Credentialing and Privileging of Health Care Practitioners,” Policy
                          Information Notice 2001-16, HRSA, July 17, 2001; and “Clarification
                          of Bureau’s of Primary Health Care Credentialing and Privileging
                          Policy Outlined in Policy Information Notices 2001-16,” Policy
                          Information Notice 2002-22, HRSA, July 10, 2002.

                    9   “Comprehensive Accreditation Manual for Ambulatory Care,” Joint
                          Commission on Accreditation of Healthcare Organizations, Draft
                          2004-2005.

                    10   Federally Supported Health Centers Assistance Act of 1992 and 1995
                         (P.L. 102-501).




OEI-00-03-00050     RISK MANAGEMENT   AT   H E A LT H C E N T E R S                            39
                  11   “Credentialing and Privileging of Health Care Practitioners,” Policy
                         Information Notice 2001-16, HRSA, July 17, 2001; and “Clarification
                         of Bureau’s of Primary Health Care Credentialing and Privileging
                         Policy Outlined in Policy Information Notices 2001-16,” Policy
                         Information Notice 2002-22, HRSA, July 10, 2002.

                  12   We defined these categories based on the number of patients served in
                        FY 2002. Small centers reported serving fewer than 5,000 patients,
                        medium centers reported serving between 5,000 and 30,000 patients,
                        and large centers reported serving more than 30,000 patients.

                  13   HRSA policies require health centers to provide training; however, the
                       policies do not specify how much training is required. HRSA does not
                       require onsite review, peer review, or patient tracking.




OEI-00-03-00050   RISK MANAGEMENT   AT   H E A LT H C E N T E R S                           40
